         OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Evaluation Report




       Partnership Programs May
       Expand EPA’s Influence

       Report No. 2007-P-00003 



       November 14, 2006 

Report Contributors:               Laurie Adams
                                   Natasha Besch-Turner
                                   Daniel Carroll
                                   Jeffrey Harris
                                   Jeffrey S. Hart
                                   Olga Stein
                                   Thane Thompson




Abbreviations

EPA          U.S. Environmental Protection Agency
FTE          Full Time Equivalent
HFC          Hydrofluorocarbon
IAC          Innovation Action Council
ICR          Information Collection Request
OA           Office of the Administrator
OAR          Office of Air and Radiation
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OPEI         Office of Policy, Economics, and Innovation
OPPTS        Office of Prevention, Pesticides, and Toxic Substances
ORD          Office of Research and Development
OSWER        Office of Solid Waste and Emergency Response
OW           Office of Water
PRA          Paperwork Reduction Act




Cover images:   Logos of six of the U.S. Environmental Protection Agency’s partnership
                programs.
                       U.S. Environmental Protection Agency                                             2007-P-00003

                                                                                                    November 14, 2006

                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment

Why We Did This Review            Partnership Programs May Expand EPA’s Influence 

Prior to our review, the U.S.      What We Found
Environmental Protection
Agency (EPA) did not have         Partnership programs may expand EPA’s environmental influence. These programs
comprehensive information         may achieve this effect by broadening EPA’s potential participant base and
describing each of its            addressing environmental problems not governed by regulations. Partnership
partnership programs. We          programs are diverse in staff size and budget levels. The number of EPA’s
conducted this evaluation to      partnership programs has grown in the last few years.
collect current and consistent
information about EPA’s           We found that partnership programs reported contributing to EPA’s overall
headquarters partnership          environmental mission. The majority of the programs also reported having annual
programs.                         goals and program outputs or outcomes. All 54 headquarters partnership program
                                  managers we spoke with stated that their program contributed to at least one EPA
Background                        strategic goal. Thirty-eight managers reported that their programs contribute to
                                  more than one goal. In a few cases, managers said they work together to solve a
Over the last few years, EPA      large environmental problem. Partnership programs build on the Agency’s
has worked to develop new         traditional regulatory efforts, but are not intended as substitutes for regulations.
types of environmental            Instead, some partnership programs work together with regulatory efforts to help
solutions. The Agency now         participants go beyond compliance with existing regulations. Other programs work
relies more heavily on            to address environmental concerns that are not governed by Federal regulations,
partnership programs to help      such as recycling and climate change.
protect the environment.
EPA’s 54 headquarters             Many partnership program managers said they collect complete and reliable data
partnership programs are          that they then use to make changes to their programs. However, barriers to data
diverse, providing a variety of   collection, including data collection costs, exist. Partners and participants
benefits to several different     contribute to some partnership programs by sharing program tasks. In a few cases,
customer groups, including        this includes participants undertaking program management roles. However, this
some nongovernmental              type of collaboration may make it difficult to determine the outcomes of individual
organizations and the public.     programs.

                                   Next Steps

                                  The Agency has had difficulty in defining, identifying, and characterizing these
For further information,          programs. Managers claim that their programs help to achieve EPA strategic goals,
contact our Office of
Congressional and Public
                                  but we have not yet gathered sufficient measurement and outcome data to verify
Liaison at (202) 566-2391.        that partnership programs are achieving these claims. Since as many as half of the
                                  programs receive marketing assistance through collaboration, as well as other in-
To view the full report,          kind services and occasional participation fees, we will need to conduct further
click on the following link:      evaluation work to determine:
www.epa.gov/oig/reports/2007/
20061114-2007-P-00003.pdf         1. How partnership programs manage their collaborative relationships.
                                  2. How those collaborative relationships support program outcomes.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL





                                       November 14, 2006

MEMORANDUM

SUBJECT:               Partnership Programs May Expand EPA’s Influence
                       Report No. 2007-P-00003

TO:                    Luis Luna, Assistant Administrator
                       Office of Administration and Resources Management

                       Bill Wehrum, Acting Assistant Administrator
                       Office of Air and Radiation

                       James Gulliford, Assistant Administrator
                       Office of Prevention, Pesticides, and Toxic Substances

                       George Gray, Assistant Administrator
                       Office of Research and Development

                       Susan Bodine, Assistant Administrator
                       Office of Solid Waste and Emergency Response

                       Benjamin Grumbles, Assistant Administrator
                       Office of Water

                       Brian Mannix, Associate Administrator
                       Office of Policy, Economics and Innovation


This is our report on the subject of U.S. Environmental Protection Agency (EPA) partnership
programs conducted by the EPA Office of Inspector General (OIG). This report represents the
opinion of the OIG and does not necessarily represent the final EPA position.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $293,349.21.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig. If you or your staffs have any questions regarding this
report, please contact me at 202-566-0847, Jeff Hart, Assignment Manager, at 303-312-6169, or
Thane Thompson, Project Manager, at 513-487-2361.


                                                   Sincerely,



                                                   Bill A. Roderick
                                                   Acting Inspector General


cc: Marcus Peacock, Deputy Administrator
                          Partnership Programs May Expand EPA’s Influence



                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1         


              Purpose ..........................................................................................................    1             

              Background ....................................................................................................       1             

              Scope and Methodology.................................................................................                2             

              Partnership Programs in Brief ........................................................................                3             


 2    Partnership Programs May Help EPA Expand its Potential Audience.............                                                  7


              Partnership Programs May Help Achieve Several Strategic Outcomes.........                                             7

              Program Managers Report Serving a Broad Participant Group .....................                                       8

              Program Managers Report That Regulatory 

                 Relationships Vary Significantly ...............................................................                   9

              Conclusion .....................................................................................................     10             


 3    Data Availability and Partner Collaboration Impact Program Management ....                                                   12     


              Managers Report That Trusted Data Inform Program 

                  Decisions, but Barriers Remain ................................................................                  12 

              Collaboration Can Provide Benefits, but May 

                  Pose Management Challenges ................................................................                      13             

              Conclusion .....................................................................................................     16             


 Status of Recommendations and Potential Monetary Benefits.................................                                        17     




Appendices
 A    EPA Partnership Programs Reviewed.................................................................                           18


 B    Summary of Survey Responses ..........................................................................                       19


 C    Glossary of Terms.................................................................................................           27


 D    Agency Responses to the Draft Report ..............................................................                          30


 E    OIG’s Comments on Agency’s Responses.........................................................                                35


 F    Distribution ............................................................................................................    37

                                           Chapter 1
                                            Introduction

Purpose
                 Over the last few years, EPA has worked to develop new types of environmental
                 solutions. Recently, the Agency has begun relying on partnership programs to
                 complement traditional regulatory approaches to protect the environment. To
                 address whether partnership programs are meeting their environmental goals, we
                 searched for existing Agency information about these programs. However, no
                 current or central set of information described what each of these programs did,
                 how they contributed to EPA’s overall mission, or how EPA managed these
                 programs. Therefore, we identified a group of headquarters partnership program
                 managers and surveyed them on the following topics.1

                        1.     What are the characteristics of partnership programs?
                        2.     How do partnership programs contribute to EPA’s overall mission?
                        3.     How are individual partnership programs managed?

Background
                 EPA has implemented partnership programs for more than 20 years. These
                 programs address a variety of environmental and human health problems,
                 including loss of wetlands and pesticide exposure. They also address water and
                 energy use, recycling, or the environmental actions of individuals. Some
                 partnership programs report very small budgets and only a fraction of a staff
                 member’s time devoted to operating them. Other programs reported they have
                 dozens of staff with budgets in the tens of millions of dollars. Partnership
                 programs reported wide diversity in their environmental focus, program benefits,
                 and participant groups. Nearly all program managers said their programs
                 encourage participants to voluntarily engage in environmentally beneficial
                 activities that are not covered by regulations. Managers said their programs offer
                 opportunities to go beyond compliance, or work to solve non-regulated
                 environmental or human health problems.

                 EPA has recognized the importance of better coordination across all partnership
                 programs. This includes enhanced accountability for sound program design and
                 improved strategic management of programs. In June 2004, EPA’s Innovation
                 Action Council2 was charged with partnership program oversight by then Acting
                 Deputy Administrator Stephen Johnson. The Partnership Program Coordination

1
 Detailed results are located in Appendix B.

2
 Established in 1996, the Innovation Action Council (IAC) is composed of EPA's top career executives, and has 

overall responsibility for formulating and advancing the Agency's innovation agenda. The mission of the IAC is to 

develop and promote innovative approaches to addressing increasingly complex environmental challenges. 



                                                         1

         Team was created to develop general program guidelines and improve support for
         partnership program managers. Since its inception, the coordination team has
         issued several guidance documents. The team has also provided training and one-
         on-one coaching sessions, and worked to stay in regular contact with many of the
         partnership programs. However, the coordination team has limited authority to
         require specific program management processes or consistent outcome reporting.

         EPA has had difficulty defining, identifying, and characterizing its partnership
         program population. These programs have been grouped into numerous
         overlapping categories, including “Voluntary Programs,” “Partnership Programs,”
         and “Stewardship Programs.” In December 2003, EPA reported that it had
         approximately 75 “Voluntary Programs.” Just 2 years later, in 2005, EPA
         reported approximately 133 EPA “Partnership Programs.” According to the
         Office of Policy, Economics, and Innovation (OPEI), this change is due to both an
         increase in the overall program population and in the way these types of programs
         are defined. OPEI informed us that the 2005 report used a broader definition of
         “partnership program” than the 2003 report.

Scope and Methodology
         EPA’s definition of partnership programs has continued to evolve during our
         review. For the purpose of this evaluation, we define a partnership program as “A
         program currently operated by a Headquarters program office that is national in
         scope, and that works to encourage participants to voluntarily engage in
         environmentally beneficial activities.” In consultation with the OIG, each EPA
         program office provided us with a list of partnership programs that met our
         criteria. This list resulted in a universe of 54 partnership programs operated by
         seven different program offices. We have included a list of the programs we
         reviewed in Appendix A.

         We developed a survey to collect partnership program information and
         administered the survey through a telephone interview with each partnership
         program. We sent completed interviews to each partnership program for data
         verification. We did not independently verify the responses for accuracy. For
         more information on the survey questions and program responses used in this
         report, please see Appendix B.

         This evaluation builds on a previous report, "Ongoing Management
         Improvements and Further Evaluation Vital to EPA Stewardship and Voluntary
         Programs" (2005-P-00007), issued in February 2005. In that report, we
         recommended that EPA should address management issues, including
         strategically planning, coordinating, and managing its voluntary programs.

         This evaluation was performed in accordance with Government Auditing
         Standards, issued by the Comptroller General of the United States. We reviewed
         management controls of the Agency-wide guidance regarding the design and
         measurement of partnership programs.


                                         2

Partnership Programs in Brief
Seven different program offices operate EPA’s headquarters partnership
programs. The number of programs operated by each office varies from 23 in
OAR to 1 each in OARM and ORD. See Table 1-1.

                                          Table 1-1. Partnership Program Distribution
                                          Number of
                                                                              EPA Program Office
                                           Programs
                                              23       Office of Air and Radiation (OAR)
                                               12      Office of Prevention, Pesticides, and Toxic Substances (OPPTS)
                                               8       Office of Water (OW)
                                               6       Office of Solid Waste and Emergency Response (OSWER)
                                               3       Office of the Administrator (OA)
                                               1       Office of Acquisition and Resource Management (OARM)
                                               1       Office of Research and Development (ORD)




The oldest partnership program still in operation began in 1985 (Radon), though
the median program age is 7 years. Figure 1-1 captures programs that were
operating on December 31, 2005. Any programs that were being developed and
have subsequently been launched, or are no longer operated by EPA, are not
included in this chart. See Figure 1-1.
                                               Figure 1-1. Growth of Partnership Programs
                                          60
  Number of Programs in operation each




                                          50
    year still in operation on 12/31/05




                                          40

                                          30

                                          20

                                          10

                                           0
                                            1985     1988   1991    1994        1997   2000   2003





Since partnership programs encourage their participants to voluntarily engage in
environmentally beneficial activities, they often give participants program
benefits as an incentive to change their behavior. Program managers reported
offering a variety of benefits to participants. As Figure 1-2 shows, most programs


                                                                           3

  Figure 1-2. Number of Programs Offering Each Benefit
                                                                  provide technical
                                                                  assistance and information;
                 10                                               relatively few provide
                      15

                       16
                                        regulatory flexibility. Only
                          19                                      one program provided
                                              39
                                                   46             fewer than three of the
                                                   46             program benefits listed in
                                                        52
                                                        52        this figure. Most programs
                                                                  provided between five or
       0                20                40                 60   six benefits; two programs
              Types of Program Benefits Offered                   provide eight of these
           Regulatory Flexibility                                 benefits to their
           Netw orking                                            participants. Each program
           Environmentally Preferable Product Designation
           Other unique benefits
                                                                  benefit is defined in the
           Competitive Business Solutions                         glossary, located in
           Public Recognition                                     Appendix C.
           EPA/State Partnership Opportunities
           Information
           Technical Assistance




Partnership programs often require participants to meet program-specific
commitments. We identified three types of partnership program commitment
approaches, including
formal requirements,           Figure 1-3. Program Commitment Approaches
informal
requirements, and no
commitment                       No                                       Formal
                             Commitment                                 Requirement
requirements.               Requirement                                    31%
Programs with formal            30%
requirements may ask
participants to sign a
memorandum of
understanding, and
may even remove
participants from the
program if they do
not meet                          Informal
commitments.                   Requirement
                                    39%
Programs using
informal
requirements may ask participants to submit data or participate in periodic
meetings. Programs that have no commitment requirements may simply provide
information or ask participants to achieve environmental outcomes in good faith.
See Figure 1-3.




                                         4

                                                     Figure 1-4. Partnership Program Budgets



                                               25




                          Number of Programs
                                               20

                                               15

                                               10

                                               5

                                               0
                                                     Less than       $100k to $1   More than $1
                                                       $100k           million        million
                 Partnership program managers said their annual budgets total an estimated $352
                 million.3 One of these programs (National Non-Point Source Pollution Program)
                 reported a budget of more than $209 million. Of the remaining programs, 36
                 reported budgets of $1 million or less, and two program managers said they had
                 no budget at all. The median program budget is $492,500. Program budgets may
                 not, however, take into account the total costs of implementing these programs,
                 such as in-kind participant contributions. See Figure 1-4.
                             Figure 1-5. Distribution of Partnership
                                         Program Staff                                   Most partnership programs
                                                                                         operate with relatively few
                                                                                         staff (hereinafter full time
                                                                                         equivalent, or FTE).
                                                                                         Program managers reported
                                                    28%        22%                       that a total of 365 FTEs run
                                                                                         these programs, though the
                                                                                         median number of program
                                                                  24%                    staff is 2.65. As shown in
                                                    26%                                  Figure 1-5, 72 percent (39 of
                                                                                         54) of partnership program
                                                                                         managers said they have
                                                                                         fewer than 5 FTEs.
                                                    less than 1 FTE
                                                    1 to 2 FTEs
                                                    more than 2, to 5 FTEs
                                                    more than 5 FTEs


3
 This total was derived from the question, “What is your annual budget in dollars?” However, some programs
provided estimates or noncurrent year totals.


                                                                     5
Partnership programs         Figure 1-6. Partnership Program Participants
provide their benefits                   F e d e ra l

to many different                       Ag en cies


types of participants,                      In d ivid u als
such as individuals,
schools, or industry.                                           S c h ool s /
                                                              U n i v e rs i ti e s
Although 7 of the 54
programs only                                                         N on - p rof i t


served 1 type of
participant, most
                                                                           S ta te /L oc a l
                                                                           G ov e rn m e n t

programs served 4 or                                                                  I n d u s try /
more of the                                                                           Bu sin ess


participant types        0      10       20             30       40                   50                60

listed in Figure 1-6.        Number of Programs Serving Each Participant Type




                              6

                                Chapter 2
            Partnership Programs May Help EPA
               Expand its Potential Audience

          Partnership programs may have expanded the potential audience that can help
          EPA accomplish its overall environmental and human health mission. Program
          managers said their programs, as a group, impact all five strategic goals. Many
          managers reported that their programs provide a diverse set of benefits to a broad
          group of participants. Some of these participants include nongovernmental
          organizations and individuals. Some program managers said they work in
          conjunction with the Agency’s traditional regulatory activities. Other program
          managers said that they help participants voluntarily protect the environment
          where there are no Federal regulations. In some cases, programs may attempt to
          provide solutions in lieu of environmental laws or regulations. While partnership
          programs may make contributions to EPA’s mission, it is necessary to conduct
          future evaluation work to determine if program outcomes are being achieved.

Partnership Programs May Help Achieve Several Strategic Outcomes
          Partnership programs may help achieve several strategic outcomes. In some
          cases, several programs work on a single environmental problem. Or, a single
          program can be spread wide enough to encompass several related environmental
          issues. Most program managers said their programs develop annual goals, and all
          assert that their programs contribute to one of EPA’s strategic goals.

          All 54 program managers identified one EPA strategic goal as their program’s
          area of primary impact. We also asked each manager to identify other strategic
          goals that their program impacts. Because of the large number of OAR programs,
          the largest number of program managers listed Goal 1: Clean Air and Global
          Climate Change as their primary impact. However, 38 of the 54 program
          managers claimed their program supports at least two strategic goals. Also, 14
          asserted that their programs support all five strategic goals. An example of these
           Table 2-1. Partnership Programs Reported Support for EPA’s 2003-2008 Strategic Goals

                                                             Primary      Secondary
                         Strategic Goal                                                  Totals
                                                             Impact        Impact
           Goal 1: Clean Air and Global Climate                 24           17            41
           Change
           Goal 2: Clean and Safe Water                         7              21          28
           Goal 3: Land Preservation and Restoration            4              13          17
           Goal 4: Healthy Communities and                      7              27          34
           Ecosystems
           Goal 5: Compliance and Environmental                 12             21          33
           Stewardship



                                            7

          reported multi-goal outcomes includes the AgStar program, which focuses
          primarily on methane emission reduction activities (Goal 1). As a result, the
          program claimed that organic loading into waterbodies has been reduced (Goal 2).
          In another example, the Smart Way Transport program focuses on reducing
          greenhouse gas emissions (Goal 1) from diesel engines used in the trucking
          industry. According to the manager, the program also claims to have significantly
          reduced particulate matter. This pollutant has been linked to asthma attacks in
          sensitive populations (Goal 4). These outcomes show that partnership programs
          may have an expanded influence on environmental problems beyond their
          primary goal or audience.

          Several programs reported that they work to solve a single overarching
          environmental problem. These “umbrella” efforts can be undertaken by one large
          and diverse program, or can be the result of several individual programs. For
          example, the Indoor Air Quality program manager outlined several subprograms,
          each focusing on a separate issue. These programs include indoor air quality in
          elementary and secondary schools, asthma, radon, and secondhand smoke. Some
          groups of programs focus on the same problem, but with different participant
          groups. For example, six program managers said their programs work to reduce
          methane emissions from sources as widespread as animal operations, coal beds,
          landfills, and power production facilities. In contrast to umbrella efforts, almost
          half of our respondents claimed that their program was unique and did not overlap
          with any other EPA partnership program. These programs address a range of
          niche environmental issues, including diverting electronic waste from landfills, or
          helping magnesium manufacturers reduce greenhouse gas emissions.

          The strategic outcomes of partnership programs may be difficult to determine
          because a shared definition of effectiveness across partnership programs does not
          exist. Some managers defined effectiveness as program participation rates.
          Others defined it as the environmental outcomes the program achieved. In some
          cases, managers defined effectiveness in terms of their costs to achieve program
          outputs or environmental outcomes. The extent that these definitions vary
          complicates EPA’s ability to determine the overall effectiveness of partnership
          programs. Further, EPA does not have guidance that defines program
          effectiveness.

Program Managers Report Serving a Broad Participant Group
          Partnership programs may help EPA reach a broad group of participants. Types
          of program participant groups can range from narrow user groups defined by their
          use of a single chemical, to entire industry populations. For example, the HFC
          (Hydrofluorocarbon) 23 Emission Reduction Program manager said the program
          works to reduce the use and emission of one specific ozone-depleting refrigerant.
          While the manager said only three manufacturing facilities in the United States
          use this chemical, all three facilities participate in the program. Those
          participants also receive ongoing technical assistance to reduce their HFC 23


                                           8

          emissions. In contrast, the Environmental Technology Verification Program
          manager said the program has tested over 350 technologies and has more than 800
          stakeholders.

          Programs managers reported that they offer several program benefits. As shown
          in Table 2-2 below, almost all partnership programs offer technical assistance and
          information as benefits to their participants. In addition to the benefits listed here,
          35 program managers said they provided other types of benefits to participants.
          These benefits include, for example, grants, increased public awareness of the
          environmental problem, or specific program outcomes. Managers reported 19
          additional benefits that were unique and did not fit into any specific category.

          These benefits
                                     Table 2-2. Number of Programs Offering Each Benefit
          included “improved
                                     # of Programs Type of Benefit
          quality of life,”
                                           52        Technical Assistance
          “improved corporate              52        Information
          environmental                    46        EPA/State Partnership Opportunities
          image,” and                      46        Public Recognition
          “helping individuals             39        Competitive Business Solutions
          become engaged as                16        Environmentally  Preferable Product Designation
          stewards of their                15        Networking
          watershed.” These                10        Regulatory  Flexibility
          types of benefits further demonstrate the diversity of partnership programs. They
          further serve as examples of the efforts that these managers reported making to
          tailor their services to the needs of their participants.

          Some partnership program managers also reported working with several different
          types of participants to solve a particular environmental problem. For example,
          the managers for both the Pesticide Environmental Stewardship Program and the
          Energy Star Energy Management Program told us that they have private sector
          participants who actively engage in voluntary activities. However, these
          managers also said they work with nonprofit organizations and community
          participants that are actively involved in helping keep the program running.
          Several programs sometimes included these program partners in an overall
          program participant count because while they are an integral part of the program,
          they are not the primary target participant. We discuss these types of
          collaborative efforts, as well as the benefits and challenges that partner
          collaboration provides, in the next chapter.

Program Managers Report That Regulatory Relationships Vary
Significantly
          EPA has traditionally worked to protect human health and the environment by
          serving in the role of regulator. EPA enforces environmental statutes, typically
          through using penalties for regulatory noncompliance. In contrast, partnership
          programs encourage their participants to voluntarily engage in environmental


                                              9

         activities by offering various benefits. EPA has begun relying on partnership
         programs as another tool for protecting the environment. Because of this reliance,
         we assessed the relationships these programs have with traditional regulatory
         programs. We found that there is not an either/or relationship between
         partnership programs and regulatory activities. Rather, we found that partnership
         programs can have several types of regulatory relationships that, together with
         traditional regulation, may reach a broader audience and achieve additional
         environmental outcomes.

         Half of the 54 partnership program managers said their programs work in
         conjunction with environmental regulations. Some reported offering regulatory
         flexibility or providing opportunities for participants to go beyond compliance
         with existing regulations. These programs work with a variety of laws. The
         majority of program managers identified a relationship with one of the following
         statutes: the Clean Air Act, the Clean Water Act, the Resource Conservation and
         Recovery Act, or the Toxic Substances Control Act. These programs encourage
         full compliance with environmental laws, and urge their participants to
         voluntarily go beyond these standards to achieve greater environmental results.

         Most of the other managers we interviewed said their programs focus on
         environmental problems not governed by regulations. These programs sometimes
         recruit community groups or individual citizens. Neither of these groups typically
         falls within the traditional regulated community. Many of the programs in this
         category also recruit businesses, States, and other participants who usually are the
         focus of traditional regulations. Regardless of their focus, these programs work to
         encourage participants to solve environmental problems not covered by
         regulations. For example, 18 program managers said their programs were
         designed to target global climate change. These efforts support both the United
         States Climate Change Action Plan and the 2002 Global Climate Change
         Initiative. This example shows that in some cases, partnership programs may be
         designed to address environmental problems where specific regulations do not
         exist.

         Finally, we found that some programs can have several different regulatory
         relationships at the same time. For example, one manager reported that their
         program can offer regulatory flexibility, help participants go beyond compliance
         with existing Federal regulations, and encourage participants to voluntarily
         protect the environment where there are no Federal regulations. In two cases,
         program managers reported that the results of their programs are used to either
         develop or meet regulations.

Conclusion
         Partnership programs may make contributions to the Agency’s overall mission.
         Managers claim that their programs help to achieve EPA strategic goals, expand
         the Agency’s participant groups, and work to expand the agency’s relationships


                                          10

beyond the traditional regulated community. However, we have not yet gathered
sufficient measurement and outcome data to verify that partnership programs are
achieving these claims. Because of this, future evaluation work needs to be
conducted to assess the extent to which each program is achieving its intended
outcomes.




                               11

                                   Chapter 3
       Data Availability and Partner Collaboration
             Impact Program Management

          Many partnership program managers said they believe they collect complete and
          reliable data. The managers said they use the data to make changes to their
          programs, but barriers to data collection, including data collection costs, exist.
          Program managers said that their partners and participants contribute to EPA’s
          partnership programs by sharing program tasks. In a few cases, they said
          participants can even undertake program management roles. This collaboration,
          however, may introduce additional challenges to determining the outcomes of
          individual programs. Because collaboration can expand the overall scope of
          programs, we will need to conduct further assessment to determine how programs
          manage their collaborative relationships, and how those relationships support
          program outcomes.

Managers Report That Trusted Data Inform Program Decisions, but
Barriers Remain
          Managers expressed a high level of             Figure 3-1. Reported Reliability of
          confidence in the reliability of their                        Program Data
          program data. We asked managers to            40
          rate the reliability of their data on a       35                                       33
          scale of 1 to 4. As Figure 3-1
                                                        30
          demonstrates, about twice as many
                                                           Number of P rograms




          program managers rated their data as          25

          the most reliable, or “4,” compared           20
                                                                                     16
          with those rating their data as a “3.”        15
          Confidence in data reliability was            10
          associated with having sufficient data.
                                                         5
          Those program managers who rated                      0          1

          their data as a “3” were about twice as        0
                                                                1          2          3           4
          likely to say data they were not
                                                            1 is leas t reliable, 4 is m os t reliable
          currently collecting would improve
          program management as those
          managers who responded with a “4.” Overall, fewer than half of the managers
          responded that data they were not collecting might improve program
          management.

          Many partnership program managers said they use their data to change their
          programs. For example, they changed the program services offered to
          participants, changed the target participants, changed internal program operations,


                                              12

                or even changed program goals. One program manager offered that “If emission
                reductions aren’t meeting program goals, then we evaluate what additional efforts
                are necessary to achieve those goals.” The program manager for the Indoor Air
                Quality program said that their “Asthma Survey revealed some asthma triggers
                where focus was lacking. This information was used to focus more on these
                triggers.”

                Another type of data some program managers can use is the results of cost-benefit
                analyses. About half of the program managers responded that they had performed
                a cost-benefit analysis for their partnership program. Some program managers
                then characterized success based on an ability to implement the program cost
                effectively. Specifically, 11 program managers defined success for their
                programs in terms of dollars spent per output or dollars spent per outcome; 6 of
                the 11 said they had conducted a cost-benefit analysis.

                Across all partnership programs, the most frequently cited barriers to getting
                environmental outcome data were that a partnership program cannot require data
                submission, and that collected data may not be completely accurate. One issue
                raised by some program managers was the cost of data collection. In fact, 10
                program managers asserted that data that might improve program management
                were not collected because the cost was too expensive. Capturing appropriate and
                adequate data is central to tracking program outcomes and making improvements
                to partnership programs. Without needed data, these programs may be hindered
                in their ability to demonstrate program success or adapt to changing partner and
                participant needs. Four program managers cited the difficulty of linking data to
                environmental outcomes as a general barrier. Other reported barriers included the
                nature of some environmental data as proprietary and therefore sensitive, and
                barriers posed by the Office of Management and Budget’s information collection
                request process.4 Four other program managers reported that they do not collect
                any data at all. Of these, three managers mentioned access to data as a top
                challenge to fully achieving their expected program outcomes.

Collaboration Can Provide Benefits, but May Pose Management
Challenges
                Partnership programs can benefit from collaborative relationships with their
                partners and participants. Program managers reported that they regularly
                collaborate with other government organizations. This collaboration includes
                sharing program tasks with their partners. In some cases, partners and
                participants can even undertake some program management roles. However,
                collaboration may introduce additional program management challenges, such as
                restricted EPA decisionmaking roles and joint EPA-partner goal-setting. Further,
                collaboration may complicate determining individual program outcomes.

4
 According to the Paperwork Reduction Act (PRA) of 1995, Federal agencies must seek OMB approval prior to
collecting data from 10 or more members of the public.


                                                     13

                 Program managers said
                                                 Table 3-1. Number of Programs That Report
                 they often collaborate with                Collaborating with Government Agencies
                 a number of government                     or Organizations
                 agencies or organizations to                                            Number of
                 complete program tasks          Government    Agency  or Organization   Programs
                 (see Table 3-1). Program                                 EPA  Regions        45
                                                                                 States       44
                 managers said this
                                                                Other Federal Agencies        44
                 collaboration fulfills                 Other EPA Partnership Programs        42
                 multiple purposes. One                       EPA Regulatory Programs         30
                 purpose is to help programs
                 with similar outcome goals properly account for the measured or observed
                 environmental outcomes of each program. For example, of the 18 programs that
                 address climate change, 6 programs reported that they have a process to attribute
                 the appropriate amount of emission reductions that each program can claim. In
                 this way, partnership programs share the task of allocating measured outcomes.
                 Another purpose for collaboration is to track if participants in one program are
                 also members of other partnership programs, as participants may enroll in more
                 than one program. Managers for nine partnership programs said they collaborate
                 with each other to track participant enrollment. A third purpose given for
                 collaboration is obtaining data for tracking environmental program outcomes.
                 Some programs use data collected by other Federal agencies. For example, 10
                 EPA program managers said they get the information they need to implement and
                 manage their programs from other Federal agencies, such as from the U.S. Census
                 Bureau.

                 Program managers also reported collaborating with their participants. Many
                 managers said they ask their participants to engage in marketing and recruitment
                 efforts. Nineteen managers even described their partners and participants as a
                 central component in their marketing strategy. Further, three program managers
                 said they require participants to market or promote the program as part of their
                 commitment.5 This work-sharing may allow program managers to focus on other
                 aspects of program management.

                 Managers said that another way that participants assist with program
                 implementation is by supplying funds. At least three managers said that their
                 participants share the costs of    Table 3-2. Tasks Accomplished by
                 the program by paying a                       Collaboration
                 participation fee. However, 11       9 Allocate outcomes among other programs
                 program managers reported            9 Track participant enrollment
                 concerns that the costs of           9 Get data used to track outcomes
                 participation may limit their        9 Share program marketing responsibilities
                 program from fully achieving its     9 Share program costs
                 expected outcomes. For

5
  One program manager responded both that partners and participants are central to their marketing strategy, and
their programs require participants to market or promote the program as part of their commitment.


                                                        14

example, several program managers cited the high cost of technology or
equipment. This may demonstrate that some partnership program managers
recognize the need to be sensitive to the expenses of their participants. Managers
reported several tasks where participants contribute to program operations. These
tasks are listed in Table 3-2.

Managing programs jointly with other agencies or organizations is not
uncommon. A few program managers said they have developed different types of
co-management relationships with their partners and participants. However, each
is accompanied by its own limitations. For example, one manager said their
program shares application review responsibilities with a nonprofit partner
organization. This process determines which participants are allowed in the
program. There may be the potential for perceived bias when programs engage in
this type of collaboration. Another manager said their program distributes
technical standards to participants through a partner Federal agency. Though
EPA develops these standards, the manager depends on their partner agency to
communicate these standards to its participants. If this information is not
communicated correctly to participants, it is possible that program outcomes will
suffer.

Another type of collaboration process can restrict EPA’s decisionmaking role in a
partnership program. The annual and overall outcome goals of the Carpet
America Recovery Effort program are reportedly established jointly by industry,
nongovernmental associations, and government agencies at the Federal, State, and
local levels. EPA is only one of many stakeholders making decisions about this
program. In fact, four program managers said they are not the sole actor in
determining their program’s participation goals.

 Table 3-3. Some Factors Included in               Program collaboration may 

           Calculating Total Implementation        complicate EPA’s ability to 

           Cost	                                   determine program outcomes and
  y Basic program budget                           total implementation costs. As
  y In-kind contributions                          listed in Table 3-3, the complete
  y Fees paid by participants
                                                   cost of implementing a
                                                   partnership program can include
other aspects in addition to a basic program budget. Our analysis shows that most
– if not all – aspects of assessing costs are complicated by program collaboration.
For example, 11 program managers said their budget was only partially funded by
their own program office. One program manager responded that the program was
funded entirely by another program office within EPA. Another said their budget
was set by a congressional earmark and has not been established as an annually-
funded activity. To establish comparable costs for some partnership programs, it
may be necessary to include implementation costs from other EPA program
offices or even other Federal agencies.




                                 15

         Many program managers said that collaboration provides their program with in-
         kind services from partners or participants. As mentioned earlier these services
         can include marketing activities or participant screening and registration. All of
         these services can be considered part of a program’s total implementation costs,
         but may be difficult to value. Further, as mentioned earlier, several programs
         report difficulty getting proprietary data from private entities. It is therefore
         important to determine the extent that programs rely on collaboration to collect
         data used to measure outcomes.

Conclusion
         Partnership program managers consistently claim to use data to make changes to
         their programs. Further, collaboration plays a significant role in the management
         of most partnership programs, as nearly half of the programs claim they receive
         marketing assistance through collaboration, as well as other in-kind services and
         occasional participation fees. As a result, we will need to conduct further
         evaluation work to determine how programs manage their collaborative
         relationships, and how those relationships support program outcomes.




                                          16

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No Recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                            17

                                                                                                           Appendix A

                   EPA Partnership Programs Reviewed
The following 54 partnership programs (listed alphabetically) met our evaluation criteria and
were verified by EPA program offices as being in operation on December 31, 2005.

Partnership Program Name                                          Program Office
Adopt Your Watershed                                              Office of Water
AgStar                                                            Office of Air and Radiation
Best Workplaces for Commuters                                     Office of Air and Radiation
Carpet America Recovery Effort                                    Office of Solid Waste and Emergency Response
Clean School Bus USA                                              Office of Air and Radiation
Clean Water Act Recognition Awards                                Office of Water
Climate Leaders                                                   Office of Air and Radiation
Coal Combustion Products Partnership                              Office of Solid Waste and Emergency Response
Coalbed Methane Outreach Program                                  Office of Air and Radiation
Combined Heat and Power Partnership                               Office of Air and Radiation
Decentralized Wastewater Treatment Systems Program                Office of Water
Design for the Environment                                        Office of Prevention, Pesticides, and Toxic Substances
Diesel Retrofit Program                                           Office of Air and Radiation
Energy Star Energy Management                                     Office of Air and Radiation
Energy Star Product Certification                                 Office of Air and Radiation
Environmental Technology Verification Program                     Office of Research and Development
Environmentally Preferable Purchasing                             Office of Prevention, Pesticides, and Toxic Substances
EPA's Volunteer Monitoring Program                                Office of Water
Federal Electronics Challenge                                     Office of Prevention, Pesticides, and Toxic Substances
Five-Star Restoration Program                                     Office of Water
Green Chemistry                                                   Office of Prevention, Pesticides, and Toxic Substances
Green Engineering                                                 Office of Prevention, Pesticides, and Toxic Substances
Green Power Partnership                                           Office of Air and Radiation
Green Suppliers Network                                           Office of Prevention, Pesticides, and Toxic Substances
GreenScapes                                                       Office of Solid Waste and Emergency Response
HFC 23 Emission Reduction Program                                 Office of Air and Radiation
High Production Volume Challenge                                  Office of Prevention, Pesticides, and Toxic Substances
Hospitals for a Healthy Environment                               Office of Prevention, Pesticides, and Toxic Substances
Indoor Air Quality                                                Office of Air and Radiation
Labs 21                                                           Office of Administration and Resources Management
Landfill Methane Outreach Program                                 Office of Air and Radiation
Methane to Markets Partnerships                                   Office of Air and Radiation
Mobile Air Conditioning Climate Protection                        Office of Air and Radiation
National Award for Smart Growth Achievement                       Office of the Administrator
National Fish and Wildlife Contamination Program                  Office of Water
National Non-Point Source Management Program                      Office of Water
National Partnership for Environmental Priorities                 Office of Solid Waste and Emergency Response
Natural Gas Star                                                  Office of Air and Radiation
Partnership for Safe Water                                        Office of Water
Performance Track                                                 Office of the Administrator
Pesticide Environmental Stewardship Program                       Office of Prevention, Pesticides, and Toxic Substances
PFC Emission Reduction Partnerships for Semi-Conductor Industry   Office of Air and Radiation
Plug-In to eCycling                                               Office of Solid Waste and Emergency Response
Radon                                                             Office of Air and Radiation
Reduced Risk for Conventional Pesticides                          Office of Prevention, Pesticides, and Toxic Substances
Sector Strategies                                                 Office of the Administrator
SF-6 Emission Reduction Partnership for Electric Power Systems    Office of Air and Radiation
SF-6 Emission Reduction Partnership for the Magnesium Industry    Office of Air and Radiation
Smart Way Transport                                               Office of Air and Radiation
Sustainable Futures                                               Office of Prevention, Pesticides, and Toxic Substances
The SunWise School Program                                        Office of Air and Radiation
Voluntary Aluminum Industrial Partnership                         Office of Air and Radiation
Voluntary Children's Chemical Evaluation Program                  Office of Prevention, Pesticides, and Toxic Substances
WasteWise                                                         Office of Solid Waste and Emergency Response




                                                            18

                                                                                    Appendix B

                     Summary of Survey Responses

As discussed in the Scope and Methodology section of Chapter 1, we supported the statements
made in this report with evidence obtained through structured interviews with partnership
program managers. We have included those survey questions and responses below. The
information below relates how the interviewees responded to each question; these responses are
provided from the program’s perspective. In some cases, the number of responses provided for a
question will total to more than our population of 54 programs, as some programs gave more
than one answer to an open-ended question. For example, when responding to “How is this
program marketed to potential participants?” many program managers provided more than one
answer. We have not independently verified these responses through documentary evidence
_____________________________________________________________________________

What EPA office and division is this program in?

 Frequency      Program Office        Office/Division
 23             OAR
                                 17 Office of Atmospheric Programs
                                  4 Office of Transportation and Air Quality
                                  2 Office of Radiation and Indoor Air
 1              OARM
                                  1 Facilities Management and Services Division
 3              OA
                                  1 Office of Development, Community and Environment
                                    Division
                                  2 Office of Policy, Economics and Innovation
 12             OPPTS
                                  3   Economics, Exposure and Technology Division
                                  2   Office of Pesticide Program
                                  4   Pollution Prevention Division
                                  3   Risk Assessment Division
 1              ORD
                                  1 National Risk Management Research Lab
 6              OSWER
                                  5 Municipal and Industrial Solid Waste Division
                                  1 Waste and Hazardous Waste Minimization & Mgmt
                                    Division.
 8              OW
                                  1   Office of Groundwater & Drinking Water
                                  1   Office of Science and Technology
                                  1   Office of Wastewater Management
                                  5   Office of Wetlands, Oceans and Watersheds




                                                  19

What year did this program begin?

 Frequency Year       Frequency Year         Frequency Year           Frequency Year
     2     1985          1       1990            5      1995              4      2000
     0     1986          3       1991            1      1996              6      2001
     2     1987          2       1992            1      1997              2      2002
     1     1988          2       1993            5      1998              5      2003
     0     1989          5       1994            4      1999              3      2004


I am going to read EPA’s 5 Strategic Goals, as listed in EPA’s 2003-2008 Strategic Plan. Under
which of the following goals is this Voluntary Program structured?

                        Goal                          # of Programs
 1. Clean Air and Global Climate Change                     24
 2. Clean and Safe Water                                     7
 3. Land Preservation and Restoration                        4
 4. Healthy Communities and Ecosystems                       7
 5. Compliance and Environmental Stewardship                12


Does this voluntary program impact any other Strategic Goal? As I read them all again, please
indicate whether or not this program impacts the Strategic Goal:
                                                Primary                  No     Don’t     No
                                                Impact       Impact    impact   Know    answer
 Clean Air and Global Climate Change?              24          17        12       1        0
 Clean and Safe Water?                             7           21        25       1        0
 Land Preservation and Restoration?                 4          13        34       2        1
 Healthy Communities and Ecosystems?                7          27        18       2        0
 Compliance and Environmental Stewardship?         12          21        20       1        0


Does this program support a strategic objective within EPA’s Strategic Plan?

  53      Yes
   1      No


Does the program have annual goals?
  40      Yes
   9      No
   5      Other




                                                20

What environmental problem does the program address?

 11     Human health 

  9     Air (other/none) 

  7     Water 

  4     Land 

  5     Ecosystem / community

 16     Multi-media 

 18     Air (greenhouse gas reduction / climate change) 

  4     Other 



Does this program help participants go beyond compliance with an existing Federal regulation?

  27      Yes 

  24      No 

   3      Other 



How do you define effectiveness for this voluntary program?

   9      Dollars spent per environmental outcome
  31      Environmental outcomes (no costs mentioned) 

   2      Dollars spent per program output 

   3      Outputs - GPRA / PART mentioned 

  24      Outputs - Participation rates 

  13      Other 



Do you use data to track the environmental outcomes for this program?

  50      Yes 

   4      No data at all 



Where does the existing data (data collected by someone else) come from?

   6      Participants 

  10      Other Federal agencies 

  12      Trade Associations / Industry sector 

   4      Other government organizations (States, regions, etc)
   5      Existing EPA databases 

  10      Other 

  25      Not applicable 





                                                  21

On a scale of 1 to 4, where 1 is the least and 4 is the most, how reliable would you say the data you
use is?

    0     1 the LEAST reliable
    1     2
   16     3
   33     4 the MOST reliable
    4     Not applicable


Do you use this data to make changes to the program?

   41     Yes
    6     No
    3     Other
    4     Not applicable

               How?

                  4        Changed data collection processes
                  8        Changed program goals
                 10        Changed target participants
                 16        Changed program services (to participants)
                 10        Not used to make changes to the program
                  8        Changed internal program operations
                  5        Other
                  4        Not applicable


What barriers exist to getting environmental outcome data?

   14     Data submission can’t be required
   12     Cost of data collection / data analysis
    4     Nature of environmental data / linking outcomes to programs
    8     ICR issues / PRA
   10     Sensitivity of data / proprietary
   13     Getting accurate data
   16     Other
    4     None


I am going to read a list of 4 benefits that voluntary program participants can receive. We took this
list from OPEI’s guidelines for designing voluntary programs. Please tell me whether your
program provides any of the following program benefits:

                                                       Yes     No         No
                                                                        answer
Environmentally Preferable Product Designation            16   38          0
EPA/State Partnership opportunity                         46   8           0
Public Recognition                                        46   7           1
Regulatory Flexibility                                    10   44          0


                                                    22

We identified a few additional program benefits that participants can receive, not covered by
OPEI’s guidelines. Please indicate whether this voluntary program offers the following three
benefits:
                                                             Yes      No         Don’t Know
 Technical Assistance                                        52        2              0
 Information                                                 52        2              0
 Competitive Business Solutions, defined as helping          39       15              0
 companies realize greater profits while achieving
 environmental results
 Does this program provide any other benefits to              35      18             1
 participants?
       What are these? (describe)
         5     Grants
        15     Networking
         3     Increased public awareness of problem.
         3     Intended program activity outcomes
        19     Other
        19     Not applicable


I am going to read a list of six categories and ask you to indicate whether the participants in this
program fall into any of the categories:

                                                                   Yes      No       No
                                                                                   answer
 Would you say they are:        Industry or Business                48       6        0
 Would you say they are:        Non-profit                          41      13        0
 Would you say they are:        State/Local Government               44     10        0
 Would you say they are:        Individuals                         20      34        0
 Would you say they are:        Schools or Universities              36     18        0

 Would you say they are:        Anything else                       
29     24        1
                                   Who?
                                    17       Other Federal agencies
                                      5      Tribes
                                      4      Trade Associations
                                      4      International community
                                      1      NGOs
                                      2      Other EPA offices or regions
                                      9      Other
                                    25       Not applicable




                                                  23

How is this program marketed to potential participants?

 35     Website 

 40     Conferences: presentations, trainings, networking 

 19     Use partners to market or recruit 

 25     Advertising: print, radio, TV, brochures, literature, publications 

  6     Formal avenues: RFP, Federal Register, etc. 

 20     Direct / targeted outreach (including mailings and list-serves) 

 17     Word of mouth 

  9     Other


Do you set program participation goals?

  30     Yes
  22     No Æ Why not? 

   1     Other 

   1     Not applicable 


               Why not?

                     7         Outcome focused program (outcome goal is not participation)
                     4         Program is full / at capacity with participants
                     4         EPA is not the sole actor in determining participation goals.
                     5         Participation is lower priority than other program management activities
                     3         Other
                    32         Not applicable


What type of commitment is required of participants?

  21     Data
   8     Self-defined plan / program 

  26     In line with program goals: reduction / outcome specific commitments 

  14     Mention of formal MOU-type agreement 

   3     Market / promote the program

   9     Other 

   3     Not applicable 

   7     None 



Participant results could potentially be counted twice if a participant is in more than one EPA
voluntary program. Do you track if your program participants are in other voluntary programs?

  22     Yes
  24     No 

   2     Other 

   6     Not applicable    





                                                     24

How do you determine if participant results are a product of your program and not the other(s)?

    7     We don't know 

   27     No overlap with any other program

    2     We have a process to do so - other/none 

   11     We have a process to do so - coordination 

    7     We have a process to do so - outcome attribution model 

    7     Other 

    6     Not applicable 



How many FTEs are assigned to this program?

 Total FTEs      364.70     0 n < 1 FTEs       12
 Mean            6.75       1n≤2               13
 Median          2.65       2n≤5               14
                            >5 FTEs            15


This voluntary program may coordinate with other offices, programs or agencies. I’m going to
read a list of possible opportunities for coordination, and please indicate for each one if you do
coordinate with them, if you could coordinate with them but don’t at this time, or if you don’t
coordinate with them at all.

                                              Could       Don’t      Other   Don’t
                                        Do    but don’t                      know
   Other EPA voluntary programs?        42        3         7          1        1
   Other EPA regulatory programs?       30        1         23         0        0
   Other Federal agencies?              44        5          3         2        0
   Regions?                             45        2         7          0        0
   States?                              44        1         9          0        0
   Local agencies?                      36        1         17         0        0


What is your annual budget in dollars?

 $ 351,529,000      Total 

   $ 6,509,796      Mean 

     $ 492,500      Median 



Does this funding come solely from your office?

   40     Yes 

   11     No 

    3     Other 





                                                    25

Have you performed a cost-benefit analysis of this voluntary program?

  24     Yes
  27     No
   2     Other
   1     Not applicable




                                               26

                                                                                    Appendix C

                               Glossary of Terms

Basic Program Budget

      The level of funds appropriated or allocated to a program for operation and
      implementation.

Competitive Business Solutions

      This is a partnership program benefit that helps participating companies realize greater
      profits while achieving environmental results.

Environmentally Preferable Product Designation

      This is a partnership program benefit. As defined in Section 201 of Executive Order
      13101, this designation means products or services that “have a lesser or reduced effect
      on human health and the environment when compared with competing products or
      services that serve the same purpose.”

EPA/State Partnership Opportunities

      This is a partnership program benefit that provides the opportunity for a regulated or non-
      regulated entity to work as a cooperative partner with the EPA or a State to solve an
      environmental problem.

Fees Paid by Participants

      Those fees paid by partnership program participants.

Formal Commitment Requirements

      Partnership programs with formal commitment requirements may require participants to
      sign a memorandum of understanding, and may even remove participants from the
      partnership program if they fail to meet their agreed upon commitments.

Informal Commitment Requirements

      Partnership programs with informal commitment requirements may ask participants to
      submit data, participate in regular meetings, or meet environmental goals in non-specific
      or non-binding ways.




                                              27

Information

      This is a partnership program benefit, and includes the various publications, newsletters,
      and website content provided by a partnership programs to make potential participants
      aware of the environmental problem the program targets, target audience, program
      benefits provided, and program participation requirements.

In-kind Contributions

      This is a contribution of equipment, supplies, or other property in lieu of a dollar
      contribution. Some organizations may also donate space or staff time as an in-kind
      contribution.

Networking

      This is a partnership program benefit that helps program participants establish a
      relationship with other partnership program participants, EPA or State agency staff, or
      other like-minded businesses or individuals who are willing to share best practices for the
      mutual benefit of all those participating.

No Commitment Requirements

      Partnership programs with no commitment requirements may simply ask participants to
      achieve environmental outcomes in good faith, or may not formally enroll participants at
      all.

Partnership Program

      For the purpose of this evaluation, partnership programs are defined as, “A program
      currently operated by a Headquarters program office that is national in scope, and that
      works to encourage participants to voluntarily engage in environmentally beneficial
      activities.”

Program Benefits Provided to Participants

      These are the various services and benefits provided to partnership program participants.
      These include the various partnership program benefits defined in this glossary, as well as
      many more unique benefits that have been developed and tailored for partnership
      program participants.

Program Partners

      Those organizations, individual citizens, or partnership program participants who take an
      active role in helping to implement partnership programs by sharing program tasks, and
      in some cases, by undertaking program management roles. These partners are sometimes




                                              28

       included in the overall program participant count because they are described as an
       integral part of the program, though they are not the primary target participant.

Public Recognition

       This is a partnership program benefit that is provided to a program participant to publicly
       recognize them for their efforts in a partnership program.

Regulatory Flexibility

       This is a partnership program benefit that is provided to participants of some partnership
       programs. This benefit allows for the development, review, and approval of an
       alternative regulatory environmental standard that is at least as protective of human
       health and the environment as the existing standard.

Technical Assistance

       This is a partnership program benefit that provides best practices, technical
       recommendations, and assistance in meeting regulatory requirements, exceeding
       regulatory requirements, or in implementing activities that reduce the impacts of
       environmental issues not covered by regulations.

Unique Program Benefits

       These are types of partnership program benefits that do not fit into any specific category,
       and which are unique to the program that offers them. The programs we interviewed
       provided 19 different examples of these types of benefits, including such things as:
       “improved quality of life;” “improved corporate environmental image;” and, “helping
       individuals become engaged as stewards of their watershed.”




                                                29

                                                                                       Appendix D

                Agency Responses to the Draft Report

Comments from the Office of Policy, Economics, and Innovation

October 12, 2006

MEMORANDUM

Subject:         NCEI Comment on Draft Evaluation Report
                 Diverse Partnership Programs May Expand EPA’s Environmental Influence
                 Assignment Number: 2006-0093

From:            Jay Benforado, Director National Center for Environmental Innovation

To:              Jeffrey Harris, Director for Program Evaluation, Cross-Media Issues

We appreciate the opportunity to comment on the Draft report- EPA’s Partnership Programs
May Expand Its Influence. Overall we feel that the content of the report provides a good
understanding of the Agency’s Partnership Programs, and we look forward to using the
information to help us in our efforts to coordinate the Agency’s Partnership Programs.

Comments on Next Steps

At a broad level, we endorse further evaluation as outlined in "next steps,” but would appreciate
your consideration of the following:

      1.	 EPA Partnership Program Strategic Management/Coordination
          Work Completed and Under Way. As you assess the existing capacity              See OIG
          for conducting performance measurement (or the extent to which                 Comments
                                                                                         in Appendix
          programs actually measure performance), the analysis should also look
                                                                                         E, Note 1
          at the work that is under way to enhance that capacity over time. This
          includes the recently released Guidelines for Measuring the
          Performance of EPA Partnership Programs which can be found on the EPA intranet at
          www.intranet.epa.gov/partners, and the training courses, Fundamentals of EPA
          Partnership Program Design Training and Social Marketing Training that have been
          well received. It is important to recognize that the snapshot at a particular moment may
          not be an accurate picture of the longer term situation.

      2.	 The important indirect impacts of EPA Partnership Programs. The
          report focuses heavily on measures of performance, and the cost of            See OIG
          implementation. We think both of these are important to evaluate.             Comments
          However, it is critical to recognize that the effects of partnership          in Appendix
                                                                                        E, Note 2
          programs are complex and sometimes indirect. It is therefore important


                                                  30

   not to look too narrowly at easily quantifiable benefits, or at benefits that are the
   immediate result of program participation. To use just one example, the Performance
   Track program reports "results" based on what its members report in terms of reduced
   pollution or resource use. The long run value of the program to EPA, however, may lie
   in less tangible benefits. For example, by highlighting and publicizing the achievements
   of leaders, the program may influence the behavior of laggards (who can no longer claim
   that they are doing everything possible when pressed by communities or stockholders).
   Furthermore, by joining Performance Track the firm is making a public commitment that
   would be more difficult to back away from in later years than would be the case in the
   absence of the program. Lastly, many experts believe that capacity-building is an
   essential pre-requisite for companies and other organizations to move “beyond
   compliance”. Performance Track plays a major role in organizational capacity building. It
   is highly important to recognize that the mechanisms by which programs have their effect
   vary greatly; again, this makes it important to fully appreciate the complexity of assessing
   the "results" of those programs.



General Concerns with Draft Report

The inclusion of the grant-based National Non-point Source                         See OIG
Management Program skews data and analysis. Of all the programs you                Comments
analyze in your evaluation, this is the only one to our knowledge that is          in Appendix
primarily a grants-based program. By grants-based we mean that most of the E, Note 3
work and resources of the program is devoted to managing grants to other
organizations. We believe that grants based programs should not be included in this analysis
because:
       a.	 While the program may involve “partnerships” it does not qualify as one of the
           “EPA Partnership Programs” as defined by the IAC Partnership Programs
           Workgroup. The definition used by this IAC Workgroup did not want to include
           programs for which EPA does not have ultimate authority over (EPA supports but
           does not fully control or have oversight over programs run by grantee
           organizations. Therefore they should not be allowed to claim they are “EPA
           Partnership Programs”). For this reason we do not plan to include it in our EPA
           Partnership Program Accomplishments Report.
       b.	 Because it is primarily a grants-based program, it represents an inherently
           different policy approach than all the other EPA Partnership Programs surveyed
           in the evaluation.
       c.	 If this program must be included, we strongly recommend for the sake of
           consistency and ensuring the integrity of your analysis, that all grants-based
           programs involving partnerships be included. This would mean adding dozens if
           not hundreds of other EPA grant-based programs that involve partnerships.
       d.	 To include only this grants-based program in your evaluation            See OIG
           skews the otherwise highly valuable budget analysis in your             Comments
           report substantially, since this program is nearly an order of          in Appendix
           magnitude larger than most EPA Partnership Programs. Please             E, Note 4



                                            31

              see the attached list of grants-based stewardship programs that may need to be
              included to ensure consistency if the National Non-point Source Management
              Program is included in this report.

       We believe the financial incentives used by EPA Partnership Programs need to be
       mentioned in the report. While we believe grants programs should be excluded from
       this report, we believe many of the most successful EPA Partnership Programs have
       found creative and powerful ways to leverage financial incentives and relationships. We
       are concerned this major incentive used by these programs was not conveyed in the
       report. The terms “savings,” “financial” or “monetary” do not even appear in the report.
       Had the survey been written a bit differently (e.g., with a focus on the term “incentive” to
       the target audience instead of the term “benefit”), your research may have found:
           a.	 Many EPA Partnership Programs have successfully leveraged
               the incentive of cost savings (AgStar, Combined Heat and               See OIG
                                                                                      Comments
               Power, Energy Star Product Labeling, Energy Star Homes,
                                                                                      in Appendix
               GreenScapes, Labs 21, SmartWay Transport, WasteWise and                E, Note 5
               many others).
           b.	 Some programs achieved substantial environmental results by convincing the
               federal government and other major buyers to “spec” certain products or services,
               yielding a significant financial incentive (Energy Star Office Equipment family of
               programs, many EPA Partnership Programs linked to the USGBC LEED green
               building standards set by many local and regional governments).
           c.	 Some EPA Partnership Programs are leveraging financial value of selling a waste
               product as an input to another company (Methane to Markets, WasteWise).
           d.	 At least one EPA Partnership Programs is leveraging the financial incentive Wall
               Street investors and analysts have on the firms they select and recommend firms
               that own and operate “high performance buildings” that demonstrably yield
               higher worker productivity (Energy Star Buildings/Commercial and Industrial).
           e.	 Some EPA Partnership Programs are leveraging the incentive by shareholders and
               company executives have to avoid financial risk (Climate Leaders, Hospitals for a
               Healthy Environment).
           f.	 At least one EPA Partnership Program is leveraging the financial influence that
               major manufacturers have on their supplier networks (Green Suppliers Network).


Line Edits
Some specific comments on the text are provided below:
                                                                                     See OIG
   1. Title Page: The title language is a little confusing the way it currently      Comments
      reads it is not clear whose influence is being expanded. 	                     in Appendix
                                                                                     E, Note 6

   2.	 At a Glance, First Sentence: “Partnership Programs may expand
       EPA’s….” should be changed to “Partnership Programs have expand               See OIG
                                                                                     Comments
       EPA’s…”. There is evidence that these programs have allowed us to
                                                                                     in Appendix
                                                                                     E, Note 7



                                                32

       make environmental improvements in areas where we do not have statutory authority or
       where a regulation would be impractical.

   3.	 At a Glance, Middle of the Second Paragraph: “Partnership Programs
                                                                                    See OIG
       build on the Agency’s traditional regulatory efforts, but are not intended   Comments
       as alternatives to regulatory services.” We suggest changing this            in Appendix
       sentence to read “Partnership Programs….efforts, but are not intended as     E, Note 8
       substitutes for regulations.”


   4.	 Page 2: It is unclear from the definition listed how grant programs fit      See OIG
       into the scope of this evaluation. The Partnership Programs Team does        Comments
       not include grants programs in our analysis.                                 in Appendix
                                                                                    E, Note 9



   5.	 Page 3: Radon is listed as the oldest partnership program, this is a         See OIG
       program that we have not historically included in our analysis, we           Comments
       question whether it truly belongs on this list.                              in Appendix
                                                                                    E, Note 10

   6.	 Page 4: We would also suggest adding the fact that the ten largest
       programs account for the majority of Agency investment in Partnership        See OIG
       Programs. Our data shows 7 programs account for two-thirds of the            Comments
                                                                                    in Appendix
       spending on national partnership programs.
                                                                                    E, Note 11


   7.	 Page 6, Second Sentence: There appears to be some language                   See OIG
       confusion, “Program Managers said (assert?) their programs…”. Should         Comments
       this not read “Program Managers said their programs…”                        in Appendix
                                                                                    E, Note 12

Thank you for considering these comments and we look forward to an on-going collaboration.




                                                33

Comments from the Office of Solid Waste and Emergency Response

October 20, 2006 


MEMORANDUM 


SUBJECT:       OSWER Response to OIG Draft Evaluation Report “Divers Partnership Programs
               May Expand EPA’s Environmental Influence”

FROM:          Susan Parker Bodine
               Assistant Administrator

TO:            Bill A. Roderick
               Acting Inspector General
               Office of Inspector General


        Thank you for the opportunity to comment on the subject draft
                                                                                     See OIG
evaluation report. We offer the following comment: On page 7, you mention            Comments
niche issues, “including diverting electronic waste from landfills”. Please note,    in Appendix
that the focus of Plug-in to eCycling is to conserve resources, not divert wastes.   E, Note 13

       If you have any questions, please contact Thea McManus at (703) 308-8738.




                                                34

                                                                               Appendix E

       OIG’s Comments on Agency’s Response

1.	   As we continue to evaluate EPA’s partnership programs, we will review all
      appropriate Agency guidance and policy documents.

2.	   We agree that there are many possible outcomes that EPA can achieve through
      implementing partnership programs. While some of those outcomes may be indirect,
      we believe that it is important to assess and evaluate quantifiable partnership program
      outcomes as they are able to be identified.

3.	   As noted in the Scope and Methodology section on Page 2,

         “EPA’s definition of partnership programs has continued to evolve during our
         review. For the purpose of this evaluation, we define a partnership program as ‘A
         program currently operated by a Headquarters program office that is national in
         scope, and that works to encourage participants to voluntarily engage in
         environmentally beneficial activities.’ In consultation with the OIG, each EPA
         program office provided us with a list of partnership programs that met our
         criteria.”

      The Office of Water’s partnership program list included the National Non-Point
      Source Program, so it was included in our census population.

4.	   In their comments, OPEI expressed concern that including the National Non-Point
      Source Program “skews the otherwise highly valuable budget analysis in your report
      substantially, since this program is nearly an order of magnitude larger than most
      EPA Partnership Programs.” However, if we were to remove the program from our
      financial analysis, there would still 36 programs with budgets of $1 million or less,
      two programs that still report no budget at all, and the median program budget with
      this program removed would be $485,000, a difference of only $7,500.

5.	   Because the scope of our survey did not include collaboration - in particular financial
      collaboration - with external partners, we did not collect the necessary information to
      discuss such incentives in this report. However, we agree that this is an important
      partnership program issue, and we plan to address it in future work.

6.	   We have changed the title of the report to, “Partnership Programs May Expand EPA’s
      Influence.”

7.	   Because we did not independently verify the survey responses for accuracy (including
      program outcomes), we cannot validate the results that each program claimed in their
      survey responses.



                                           35

8.	    We have made this change to the At a Glance section.

9.	    As noted in Comment 3, each program office compiled their list of partnership
       programs. While we recognize that OPEI considers the Non-Point Source Program to
       be a grant program, it was included in the Office of Water’s partnership program list
       based on our criteria and was therefore included in our census population.

10.	   As noted in Comment 3, each program office compiled their list of partnership
       programs. The Office of Air and Radiation’s partnership program list included the
       Radon program, so it was included in our census population.

11.	   We agree that a small number of programs receive the majority of partnership
       program spending. However, the results of our survey do not support this specific
       assertion.

12.	   We have made this change to Chapter 2.

13.	   We have changed this sentence to read as follows: “These programs address a range
       of niche environmental issues, including diverting electronic waste from landfills, or
       helping magnesium manufacturers reduce greenhouse gas emissions.” This is based
       on the program’s verified response to the survey question, “What environmental
       problem does the program address?” as follows:

          •	 Resource Conservation and Land Preservation.
          •	 Divert waste from landfills, including heavy metals. Reduce potential for
             releases and exposures to hazardous substances.
          •	 Use resources more efficiently through increased reuse and refurbishing of
             reusable products. Increase recovery of materials and reuse of them in new
             products.

       We recognize that the program may address several environmental problems, and
       determined that this particular portion of the response was a niche issue.




                                           36

                                                                                   Appendix F

                                     Distribution

Office of the Administrator
Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Administration and Resources Management
Associate Administrator, Office of Policy, Economics and Innovation
Assistant Administrator, Office of Office of Prevention, Pesticides, and Toxic Substances
Assistant Administrator, Office of Research and Development
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Water
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Prevention, Pesticides, and Toxic Substances
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Water
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Office of General Counsel
Acting Inspector General




                                               37

